     DEPARTMENT OF HOMELAND SECURITY
            Office of Inspector General

         Information Technology Management Letter for the FY 2007 

         Transportation Security Administration Balance Sheet Audit 

                                 (Redacted) 





     Notice: The Department of Homeland Security, Office of Inspector General has
     redacted this report for public release. A review under the Freedom of
     Information Action will be conducted upon request.




OIG-08-72                                                  June 2008
                                                                        Office of Inspector General

                                                                        U.S. Department of
                                                                        Homeland Security
                                                                        Washington, DC 20528




                                      June 27, 2008

                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to
the Inspector General Act of 1978. This is one of a series of audit, inspection, and special
reports prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report presents the information technology (IT) management letter for the
Transportation Security Administration (TSA) balance sheet audit as of September 30, 2007.
It contains observations and recommendations related to information technology internal
control that were not required to be reported in the financial statement audit report (OIG-08-
57, May 2008) and represents the separate restricted distribution report mentioned in that
report. The independent accounting firm KPMG LLP (KPMG) performed the audit of TSA’s
FY 2007 financial statements and prepared this IT management letter. KPMG is responsible
for the attached IT management letter dated February 8, 2008, and the conclusions expressed
in it. We do not express opinions on DHS’ financial statements or internal control or
conclusion on compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is our
hope that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report




                                      Richard L. Skinner 

                                      Inspector General 

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
